<html>
<title> - [H.A.S.C. No. 115-55] EVALUATING DEPARTMENT OF DEFENSE EQUIPMENT AND UNIFORM PROCUREMENT IN IRAQ AND AFGHANISTAN</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]






 
                         [H.A.S.C. No. 115-55]

                    EVALUATING DEPARTMENT OF DEFENSE

                         EQUIPMENT AND UNIFORM

                  PROCUREMENT IN IRAQ AND AFGHANISTAN

                               __________

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             JULY 25, 2017


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



 
                                    ______
 
                          U.S. GOVERNMENT PUBLISHING OFFICE 
 
 26-740                         WASHINGTON : 2017 
 -----------------------------------------------------------------------
   For sale by the Superintendent of Documents, U.S. Government Publishing 
   Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
          DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                           Washington, DC 20402-0001

 
 
 
 
 
                                     
  


              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                  VICKY HARTZLER, Missouri, Chairwoman

K. MICHAEL CONAWAY, Texas            SETH MOULTON, Massachusetts
MATT GAETZ, Florida                  TOM O'HALLERAN, Arizona
JIM BANKS, Indiana                   THOMAS R. SUOZZI, New York
LIZ CHENEY, Wyoming                  JIMMY PANETTA, California
AUSTIN SCOTT, Georgia
              Elizabeth Conrad, Professional Staff Member
                       Barron YoungSmith, Counsel
                         Anna Waterfield, Clerk
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                         
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hartzler, Hon. Vicky, a Representative from Missouri, Chairwoman, 
  Subcommittee on Oversight and Investigations...................     1
Moulton, Hon. Seth, a Representative from Massachusetts, Ranking 
  Member, Subcommittee on Oversight and Investigations...........     2

                               WITNESSES

Farb, Jessica, Director, International Affairs and Trade, 
  Government Accountability Office...............................     8
Roark, Michael J., Assistant Inspector General, Contract 
  Management and Payments, Department of Defense Inspector 
  General........................................................     6
Sopko, Hon. John F., Special Inspector General for Afghanistan 
  Reconstruction.................................................     4
Velz, Peter, Director, Afghanistan (Resources and Transition), 
  Office of the Under Secretary of Defense, Policy; and COL David 
  Navratil, Country Director for Iraq, Office of the Under 
  Secretary of Defense, Policy...................................    26

                                APPENDIX

Prepared Statements:

    Farb, Jessica................................................    71
    Hartzler, Hon. Vicky.........................................    43
    Moulton, Hon. Seth...........................................    45
    Roark, Michael J.............................................    63
    Sopko, Hon. John F...........................................    48
    Velz, Peter, joint with COL David Navratil...................    84

Documents Submitted for the Record:

    [Submitted documents are retained in subcommittee files.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Banks....................................................    93
    Mrs. Hartzler................................................    93

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
    
    
    
    
    
    
    
    
    
    
                    EVALUATING DEPARTMENT OF DEFENSE

       EQUIPMENT AND UNIFORM PROCUREMENT IN IRAQ AND AFGHANISTAN

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Oversight and Investigations,
                            Washington, DC, Tuesday, July 25, 2017.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
room 2212, Rayburn House Office Building, Hon. Vicky Hartzler 
(chairwoman of the subcommittee) presiding.

OPENING STATEMENT OF HON. VICKY HARTZLER, A REPRESENTATIVE FROM 
      MISSOURI, CHAIRWOMAN, SUBCOMMITTEE ON OVERSIGHT AND 
                         INVESTIGATIONS

    Mrs. Hartzler. Good afternoon. This hearing will come to 
order.
    Welcome to our subcommittee members and witnesses 
testifying before us today.
    In connection with today's hearing, I welcome the members 
of the full committee, who are not members of the subcommittee, 
who are or will be attending. I ask unanimous consent that 
these committee members be permitted to participate in this 
hearing with the understanding that all sitting subcommittee 
members will be recognized for questions prior to those not 
assigned to the subcommittee.
    Without objection, so ordered.
    One of the objectives of this subcommittee is to bring 
attention to programs or activities which face management 
challenges, are too costly, or could be administered better. 
Given the pressures on the budget of the Department of Defense 
[DOD], every dollar counts. We cannot afford to make avoidable 
mistakes.
    Vigorous oversight can help ensure that mistakes don't 
happen, and when they inevitably do, we learn lessons from 
these missteps. For this reason, I am happy to convene this 
hearing today on several recent reports highlighting 
deficiencies within the Department.
    Last month, the Special Inspector General for Afghanistan 
Reconstruction [SIGAR] released a report assessing that the 
Department overpaid as much as $28 million on uniforms for the 
Afghan National Army. Furthermore, the pattern selected by the 
Afghan minister of defense may not even be appropriate for 
Afghanistan's environment.
    I understand it is important to listen to and work 
collaboratively with our partner nations when we are helping to 
train and outfit their forces, but I am eager to know 
specifically how to avoid similar missteps in the future. I 
want to know what the Department is doing to ensure that Afghan 
troops are appropriately outfitted at a price that is right for 
the U.S. taxpayer.
    On Friday, the Secretary of Defense sent a very strongly 
worded memorandum to his senior-most deputies. In light of the 
Afghan uniform report, the Secretary directed them to, quote, 
``bring to light wasteful practices and take aggressive steps 
to end waste in our department,'' end quote.
    This is essential. Other recent reports by the Government 
Accountability Office [GAO] and the Department of Defense 
Inspector General identified issues with the management of 
equipment funded by the Iraq Train and Equip Fund, or ITEF.
    GAO determined that DOD had difficulty tracking and 
accounting for material as it was procured, shipped to the 
theater, and then provided to Iraq security forces. Similarly, 
the Department of Defense's Inspector General has conducted two 
inquiries which determined that the Army had ineffective 
controls for processing, transferring, and securing ITEF 
equipment in Iraq.
    The Department must improve its monitoring and management 
of this equipment to be more accurate and transparent. I 
applaud the Army for already taking steps to do so.
    I look forward to hearing what progress the Department has 
made in continuing to remedy these various deficiencies. 
Vigorous oversight can ensure that hard-earned taxpayer dollars 
are being put to good use in securing our Nation's defense.
    Our first panel will address the findings and 
recommendations of the various reports.
    Our second panel will address how the Department is working 
to overcome the many challenges inherent to executing train and 
equip programs.
    So I now turn to my colleague, Ranking Member Moulton, for 
his introductory remarks.
    [The prepared statement of Mrs. Hartzler can be found in 
the Appendix on page 43.]

     STATEMENT OF HON. SETH MOULTON, A REPRESENTATIVE FROM 
 MASSACHUSETTS, RANKING MEMBER, SUBCOMMITTEE ON OVERSIGHT AND 
                         INVESTIGATIONS

    Mr. Moulton. Thank you very much, Madam Chairwoman.
    You know, this situation with the Afghan uniforms reminds 
me of when I was in the Kuwait desert with my platoon, and we 
were getting ready to invade Iraq. And a few days before we 
invaded fully anticipating to be hit with chemical weapons, we 
were issued our chemical weapons suits. And we ripped open the 
black plastic packages, we took out green camouflage chemical 
weapon suits to invade Iraq.
    Now, this is back in the ``axis of evil'' days, and so we 
joked that they must be saving the desert ones for Korea. But 
you would think that we would learn from mistakes like that, 
and yet, a few years later, we see this happening again when it 
is completely within our control.
    The uniforms that were issued to the Afghan National Army 
have been deemed inappropriate for 97 percent of Afghanistan. 
At the same time, there were desert pattern uniforms owned by 
the Department of Defense that would have been perfectly 
appropriate.
    In response to this investigation, the House Armed Services 
Committee has acted and included a provision in the fiscal year 
2018 NDAA [National Defense Authorization Act] that would 
require DOD to perform both cost and requirement analyses 
before awarding any new contract for uniforms in Afghanistan.
    It is designed to ensure this particular mistake never 
happens again, but I want to ensure this oversight body hears 
from you about whether you believe that is the case, whether it 
will work, and whether there is much more we should be doing.
    We need to get to the bottom of what went wrong. I can't 
tell you what I can do with $26 million in my district.
    I would also like to hear your thoughts on what we should 
do now that we have bought these uniforms for the Afghan forces 
and whether or not it makes sense to use additional taxpayer 
funds to buy replacements.
    It is easy to conclude that the Defense Department did not 
subject this decision to sufficient supervision or oversight. 
But it is also important to say that DOD regularly complains 
that Congress imposes onerous reporting requirements and other 
oversight measures that take too much time, require too much 
bureaucracy, and hurt the operational efficiency of our 
military. We don't want to do that, but these are the kinds of 
situations that demand it.
    Therefore, we want to better understand how these decisions 
were made and the broader policy changes you would recommend to 
prevent these outrageous mistakes in the future.
    In the absence of good answers, we will demand stricter 
oversight, and we will get into the weeds. My hope is that we 
can eventually gain the confidence that DOD will prevent the 
massive waste of taxpayer dollars in the future without 
requiring us to impose more bureaucratic oversight on daily 
operations.
    The second set of findings in some ways should concern us 
even more. If we are not adequately tracking and securing the 
weapons and equipment we send to our allies in Iraq or 
Afghanistan, or anywhere else, that endangers the critical 
efforts of the Iraqi security forces to defeat ISIS [Islamic 
State of Iraq and Syria] and ensure they are able to stabilize 
the country after combat operations are complete.
    Both of the Department of Defense's own inspector general 
as well as the GAO have concluded that there are serious 
shortcomings remaining in our ability to sufficiently track and 
account for the weapons and other hardware we are providing via 
the Iraq Train and Equip Fund, or ITEF.
    More specifically, the GAO found the Department of Defense 
only maintains, quote, ``limited visibility and accountability 
over equipment funded by ITEF,'' end quote, and that a key 
tracking system is, quote, ``not consistently capturing key 
transportation dates of ITEF equipment.''
    Again, I myself have been responsible for delivering 
ammunition, weapons, and other equipment to the Iraqi security 
forces. My team and I have maintained strict accountability of 
what was delivered and showed up to inspect those deliveries. 
We held our Iraqi leaders, our counterparts, accountable. We 
made them sign for everything, and we followed up with other 
inspections to make sure that they still had the inventory they 
accepted.
    We can do this. We can do it right, and we need to do it, 
and the American taxpayer deserves it, not to mention our 
troops in the field, who certainly don't want to find 
themselves targeted by our own superior weapons and equipment.
    Some progress has been made, but I am eager to hear more 
specifics about how we can ensure that hundreds of millions of 
dollars in weapons and equipment are, indeed, accounted for and 
confirmed as properly delivered where intended.
    I thank you for your oversight work, and I look forward to 
your testimony today.
    And with that, I yield back.
    [The prepared statement of Mr. Moulton can be found in the 
Appendix on page 45.]
    Mrs. Hartzler. Thank you, Mr. Moulton.
    And I am pleased to recognize our witnesses today, and I 
want to thank them for taking time to be with us.
    We have the Honorable John Sopko, the Special Inspector 
General for Afghanistan Reconstruction; Mr. Michael Roark, the 
Assistant Inspector General for the Contract Management and 
Payments directorate at the Department of Defense Inspector 
General, and Ms. Jessica Farb, director on the International 
Affairs and Trade team at the Government Accountability Office.
    So we will now hear your opening statements.
    Mr. Sopko, we will begin with you.

STATEMENT OF HON. JOHN F. SOPKO, SPECIAL INSPECTOR GENERAL FOR 
                   AFGHANISTAN RECONSTRUCTION

    Mr. Sopko. Thank you very much, Chairman Hartzler, Ranking 
Member Moulton, and members of the subcommittee and committee.
    It is an honor and a pleasure to be here again to discuss 
SIGAR's work in Afghanistan, and in particular, the purchase of 
uniforms for the Afghan National Army [ANA] by the Combined 
Security Transition Command in Afghanistan, commonly referred 
to as CSTC-A, which is responsible for the bulk of the 
training, advising, and assisting of the Afghan security forces 
there.
    CSTC-A, as you alluded to, procured over 1 million ANA 
uniforms with a proprietary pattern without testing its 
effectiveness and costing up to $28 million more than needed.
    As Secretary Mattis recently noted, quote, ``the key 
findings of the SIGAR report is not just that it exposes waste, 
but rather, it serves as an example of a complacent mode of 
thinking.'' He also refers to it as a cavalier attitude toward 
the expenditure of taxpayer funds.
    This $93 million procurement demonstrates what happens when 
people in the government don't follow the rules.
    Now, I would like to highlight 10 specific areas of concern 
for you to consider. First, it appears that CSTC-A only showed 
the Afghan minister of defense proprietary camouflaged patterns 
owned by one company, a Canadian company called HyperStealth.
    Secondly, CSTC-A failed to consider other available 
camouflage patterns, including those owned by the Department of 
Defense, which would have been cheaper and, perhaps, equally 
effective.
    Third, CSTC-A never tested the HyperStealth pattern for its 
effectiveness in Afghanistan.
    CSTC-A never justified the uniform requirements, which made 
those uniforms more costly than those used by other Afghan 
units and paid for by the U.S. taxpayer.
    CSTC-A recommended using a sole source award to 
HyperStealth, even though DOD contracting officers objected.
    CSTC-A got around those objections by using a de facto sole 
source process, which required whomever won the prime contract 
to use the HyperStealth pattern.
    CSTC-A also mysteriously alerted HyperStealth to, quote, 
unquote, ``wait by the phone'' for a call from the Atlantic 
Dive Supply Company, also known as ADS, who ultimately 
purchased the exclusive license for their camouflage pattern in 
Afghanistan.
    Now, Federal regulations dictate that brand name 
acquisitions like this require market research and require a 
justification. CSTC-A did neither.
    In addition, we found that CSTC-A was unable to determine 
the total amount of direct assistance spent on procuring ANA 
uniforms, nor the amount of uniforms actually purchased, due to 
poor oversight and poor recordkeeping.
    And lastly, an area of concern is that we uncovered that 
the Afghans did not adhere to the Berry Amendment, which 
requires the purchase of only U.S. textiles when procuring ANA 
uniforms of direct assistance.
    Instead, the Afghans used U.S. taxpayer dollars to purchase 
inferior Chinese textiles for their uniforms.
    Now, these problems, Madam Chairman, are serious. They are 
so serious that we started a criminal investigation related to 
the procurement of the ANA uniforms. But I must say, as a 
result of our work and as a result of conversations we have had 
with OSD [Office of the Secretary of Defense] Policy about 
other issues, that I want to announce today that we believe it 
is prudent to review all of CSTC-A's contracts related to the 
procurement of organizational clothing and individual equipment 
in Afghanistan.
    We are pleased that OSD Policy concurred with the report's 
recommendations, because if unmodified, this procurement, if it 
continues, would needlessly cause the taxpayer an additional 
$72 million over the next 10 years.
    I would also like to thank my colleagues in OSD Policy for 
identifying some contracts they believe ripe for oversight.
    I would also like to thank this committee and the committee 
members who recently voted for that amendment mandating a 
review of the cost-benefit analysis of this contract.
    I would also like to encourage the subcommittee to ensure 
DOD conducts proper oversight that addresses the broader 
problems that SIGAR identifies in its work.
    As we all know, oversight is mission critical, and we 
cannot afford to wait until we waste millions of dollars to try 
to fix it.
    Finally, I would like to thank Secretary Mattis for his 
support and leadership as shown by his recent memo to senior 
DOD officials supporting SIGAR's findings and reiterating the 
need to, quote, ``take aggressive action to end waste in the 
Department of Defense.''
    Thank you very much for the opportunity to testify, and I 
am happy to answer any questions.
    [The prepared statement of Mr. Sopko can be found in the 
Appendix on page 48.]
    Mrs. Hartzler. Thank you very much.
    Mr. Roark.

  STATEMENT OF MICHAEL J. ROARK, ASSISTANT INSPECTOR GENERAL, 
    CONTRACT MANAGEMENT AND PAYMENTS, DEPARTMENT OF DEFENSE 
                       INSPECTOR GENERAL

    Mr. Roark. Chairwoman Hartzler, Ranking Member Moulton, and 
members of the subcommittee, thank you for the opportunity to 
discuss our two audits on Iraq Train and Equip Fund equipment.
    We initiated these two audits in 2016 based on concerns 
identified during previous audits in Kuwait for Operation 
Inherent Resolve and a request from the Army's 1st Theater 
Sustainment Command, or 1st TSC, to review its policies and 
procedures for the ITEF mission.
    Our first audit focused on whether the Army had effective 
controls for processing and transferring ITEF equipment to the 
Government of Iraq, or GOI. And our second audit focused on the 
procedures for securing ITEF equipment, including weapons, in 
Kuwait and Iraq.
    Congress created ITEF in 2014 to assist the GOI to combat 
the Islamic State in Iraq and Syria by providing assistance for 
training and equipment, logistic support, and supplies and 
services. Examples of ITEF equipment include body armor, 
weapons, and cargo trucks.
    Army regulations require maintaining visibility and 
accountability, securing, and conducting inventories of 
equipment. The Army's 1st TSC has primary responsibility for 
maintaining visibility and property accountability of ITEF 
equipment transferred to Iraq.
    ITEF equipment is typically staged in Kuwait and then 
shipped to multiple transfer sites in Iraq.
    Our first audit found that the 1st TSC did not have 
complete visibility and accountability of ITEF equipment prior 
to transfer to the Iraqis because the command did not use 
automated systems to keep track of that equipment.
    Specifically, we found two problems with accountability. 
First, the 1st TSC could not provide complete data for the 
quantity and dollar value of equipment on hand, including 
vehicles and ammunition.
    Instead, the 1st TSC relied on multiple spreadsheets 
developed by different commands in both Kuwait and Iraq to 
provide visibility and accountability. When we requested the 
quantity and dollar value of equipment on hand and that had 
been transferred to the GOI, the 1st TSC had to contact various 
officials and manually calculate the data based on multiple 
spreadsheets and systems and even after that, their response 
was still incomplete.
    Mr. Suozzi. I am sorry, Mr. Roark. Could you just tell us 
what a TSC is, please?
    Mr. Roark. The 1st Theater Sustainment Command is the Army 
command in Kuwait that is responsible for keeping track of the 
equipment.
    Mr. Suozzi. Thank you.
    Mr. Roark. Second, the 1st TSC did not consistently account 
for equipment in Iraq. In some cases, they did not enter the 
property into property records when it initially arrived in 
country, or they sent it to Iraq and considered that it was 
already transferred to the Iraqis, although it could still be 
under U.S. control.
    As a result, the 1st TSC did not have accurate up-to-date 
records on the quantity and dollar value of Iraq equipment that 
we valued at over $1 billion.
    As a result of our audit, the 1st TSC developed a shared 
spreadsheet for all commands to use to keep track of ITEF 
equipment, and then in the long term, they initiated steps to 
use automated systems by late 2016.
    Our second audit focused on inventory and security 
procedures for ITEF weapons. As of October 2016, there were 
over 11,000 ITEF weapons valued at $17.7 million in Kuwait and 
over 2,900 ITEF weapons valued at $2.3 million at the one 
transfer site in Iraq that we visited.
    Examples of these weapons included M-16 rifles, M-14 sniper 
rifles, and 12-gauge shotguns. We found that the Army did not 
have effective procedures for conducting inventories and 
securing ITEF weapons in both Kuwait and Iraq.
    In Kuwait, we identified three main security problems. 
First, the Army did not consistently conduct inventories of 
weapons. Second, and most concerning, ITEF weapons were stored 
in cardboard boxes, some of which had holes in them or had 
partially collapsed. Weapons were also stored in wooden crates 
that were not banded or locked. As a result, we were able to 
open numerous boxes and expose their contents.
    Third, we observed Syrian equipment managed by Army 
contractors that were stored right alongside ITEF equipment 
with no physical barrier separating the two. In response to our 
audit, the Army established inventory and security procedures 
for the Kuwait warehouse and then reorganized the warehouse to 
separate the ITEF and Syrian equipment.
    In Iraq, we found that the Army did not effectively secure 
ITEF weapons at the site we visited in accordance with Army 
regulations. Specifically, incoming weapons were stored at a 
storage yard that had a perimeter fence with multiple holes in 
it large enough to grant unauthorized access.
    As a result of our audit, the command repaired the fence 
and then later moved the equipment to a secured location.
    During the audits, the Army commands that we dealt with 
were very receptive to our recommendations and initiated steps 
to implement corrective actions. These two audits continued our 
longstanding practice of informing commands in a contingency 
environment of our observations during the audit to allow them 
to make real-time corrective actions rather than waiting for a 
final report to be issued months later.
    This concludes my statement, and I am prepared to answer 
any questions you may have.
    [The prepared statement of Mr. Roark can be found in the 
Appendix on page 63.]
    Mrs. Hartzler. Thank you.
    Ms. Farb.

STATEMENT OF JESSICA FARB, DIRECTOR, INTERNATIONAL AFFAIRS AND 
            TRADE, GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Farb. Chairwoman Hartzler, Ranking Member Moulton, and 
members of the subcommittee, I am pleased to be here today to 
discuss our May 2017 report on DOD's accountability for 
equipment provided through the Iraq Train and Equip Fund, or 
ITEF.
    Congress created ITEF to provide equipment and other 
assistance to Iraq security forces to counter the expansion of 
ISIS. As of December 2016, DOD had disbursed about $2 billion 
of the $2.3 billion Congress appropriated to ITEF in fiscal 
years 2015 and 2016. These funds purchased personal protective 
equipment, weapons, and vehicles for these forces, among other 
things.
    We found that DOD does not collect timely and accurate 
information on the status of equipment purchased through the 
fund. As a result, DOD cannot demonstrate that this equipment 
reached intended destinations in Iraq.
    Specifically, DOD does not ensure that SCIP, the Security 
Cooperation Information Portal, consistently captures key 
transportation dates of ITEF-funded equipment. SCIP is designed 
to provide end-to-end visibility over equipment that DOD 
provides to foreign governments. For Iraq, SCIP is intended to 
provide visibility over equipment as it moves through three 
phases: acquisition and shipment, staging in Kuwait and Iraq, 
and transfer to the Government of Iraq or the Kurdistan 
Regional Government.
    We found that SCIP captured some of the key transportation 
dates for orders of equipment during the acquisition and 
shipping phases; however, SCIP captured none of the 
transportation dates for these orders during the staging and 
transfer phases.
    DOD officials attributed this to three potential 
interoperability and data reporting issues in SCIP. First, SCIP 
may not be importing key dates correctly from other DOD data 
systems. Second, SCIP's management report system may not be 
importing key dates from within SCIP itself. And third, DOD 
component staff may not be reporting key dates in SCIP. In some 
instances, staff are not required to do so, while in others 
staff reported difficulty recording these dates in SCIP due to 
the lack of clear procedures in a designated data field.
    In addition to issues with reporting in SCIP, we also found 
that DOD cannot fully account for ITEF funded equipment 
transferred to the Government of Iraq or the Kurdistan Regional 
Government due to missing or incomplete documentation.
    Most of DOD's transfer documentation lack case identifier 
information, which is key to tracking equipment throughout each 
phase of the process.
    Although DOD issued a verbal order requiring the use of 
case identifiers, this was not incorporated into standard 
operating procedures for ensuring accountability.
    We made four recommendations in our report. First, we 
recommended that DOD develop written procedures that specify 
the data field to be used to capture equipment transfer dates 
in SCIP. Second, we recommended that the Department develop 
written procedures for including case identifiers in the 
transfer documentation.
    Third, we recommended that DOD should identify the root 
causes of the problems, such as interoperability and data 
reporting issues within SCIP and other data systems. And 
fourth, we recommended that the Department should develop an 
action plan with milestones and timeframes to address the root 
causes that they identify.
    DOD has already taken some steps to begin to address these 
recommendations. With respect to the first two recommendations, 
the Department just this month provided us with updated 
procedures, and we are in the process of evaluating whether 
they fully address GAO's recommendations.
    In response to our third and fourth recommendations, the 
Department said that it has begun identifying the root causes 
of the data reporting issues in SCIP and will develop an action 
plan and timeframe for addressing them.
    In addition, DOD has requested GAO's assistance to ensure 
that the issues we identified are appropriately resolved.
    We have recently started new work that will examine the 
disposition of ITEF-funded equipment after it has been 
transferred to the Government of Iraq or the Kurdistan Regional 
Government. As we conduct this important analysis, we will 
continue to follow up on DOD's efforts to improve its 
accountability and visibility over ITEF-funded equipment.
    Chairwoman Hartzler, Ranking Member Moulton, and members of 
the subcommittee, this concludes my prepared remarks. I would 
be pleased to answer any questions you may have at this time.
    [The prepared statement of Ms. Farb can be found in the 
Appendix on page 71.]
    Mrs. Hartzler. Thank you very much. Very good work on all 
your behalf. I appreciate you looking into this very important 
issue of making sure our tax dollars are spent wisely and the 
equipment gets in the hands of those who really need it.
    I want to start with you, Mr. Sopko. So you address some 
new things. First of all, you provided all of us with some 
pictures here. I just wanted to, for the record and for the 
audience, make sure that they see what we are seeing here as a 
committee. That up here on the left is the pattern that was 
chosen that is proprietary, and the one on the right is the 
woodland battle dress uniform that goes to the Afghan special 
forces that I believe you said is not proprietary. And all of 
these patterns down below are owned by the U.S. Department of 
Defense and wouldn't have cost the additional money.
    [The pictures referred to are retained in the subcommittee 
files and can be viewed upon request.]
    Mrs. Hartzler. Can you kind of walk through how you think--
how this happened that we end up having this pattern here that 
looks like a forest, and that is what the Afghanistan security 
forces chose or wanted, but yet, we had these down here that 
were available at a much more economical cost that have--looked 
more like a sand environment and desert.
    So can you kind of walk us through the different patterns 
and how we came to have this in Afghanistan?
    Mr. Sopko. Thank you. And I am happy to do that, Madam 
Chairman.
    You are absolutely correct. This is the proprietary 
pattern. And what that basically means is that somebody owned 
that pattern, and the government has to pay a licensing fee for 
using it.
    The woodland pattern over here that you pointed out, that I 
don't think--that is a nonproprietary pattern, so we didn't 
have to pay for it.
    You asked the question, how did this happen? Well, that is 
part of our investigation. But it is pretty clear from our 
discussion with the CSTC-A officials in reviewing the files, 
the reason it happened is that the minister of defense, 
Minister Wardak, never saw the DOD-owned patterns down below. 
He was basically shown only patterns owned by one company, the 
Canadian company that I mentioned previously.
    So that is why--I mean, this kind of reminds me of an old 
joke about buying a Model T. Henry Ford can say, you can get 
any car you want, as long as it is black. Well, basically, we 
gave--the only options we gave the minister of defense was the 
proprietary patterns. We never showed him this.
    The bigger problem is, no one ever did an assessment as to 
what kind of camouflage is best in Afghanistan. And we talked 
to people who do that for a living. We talked to the military 
who do that for a living up in Massachusetts, and they said 
that is what you should do. You should look at the environment. 
And as a matter of fact, some of our military have two 
different uniforms, one for the desert and one for that small 
area where there is greenery. But that option was never 
provided.
    Basically, what we were told by CSTC-A, and we are 
researching this right now, is the minister of defense liked 
this color, so he picked it.
    Mrs. Hartzler. Now, some of the information I had read 
prior to this hearing said that one of the reasons that he 
chose that is he wanted it to be unique. He wanted it to be 
different than, perhaps, what U.S. might be wearing or others 
to identify them. So maybe he had that rationale.
    But I wanted to clarify, so if the U.S. Department of 
Defense owns these patterns down here, are they currently in 
use by our forces?
    Mr. Sopko. No, they are not. And they are not used--and no 
one is using them in Afghanistan. We have patterns that look 
like it, but not exactly the same. So if he wanted a unique 
pattern, he could have picked one of these if he had been 
shown. Some are green and some are brown or whatever color it 
is, but he could have picked those and wouldn't have cost the 
government anything extra.
    Mrs. Hartzler. Now, you mentioned--thank you.
    You mentioned that we need to get to the bottom of this or 
that in the future we could have $72 million additional money 
that was already spent. Can you clarify? What are you referring 
to there?
    Mr. Sopko. We are locked into providing the Afghans with 
uniforms. Every new soldier, Afghan soldier, gets four new 
uniforms when he starts, and they get replaced on a regular 
basis. And the way it is now, the only pattern we can buy is 
the pattern owned by the license--the company that owns the 
license. So we are locked into that. If we don't change this, 
we are going to pay extra, not just for the proprietary 
pattern, but the second part is they decided to have a more 
expensive uniform, a fancier uniform, more like the Americans, 
so it has zippers and a bunch of other things, they looked more 
fashionable, but no assessment was done why you needed that 
uniform for the Afghans.
    Mrs. Hartzler. Do you know how long the contract is 
currently?
    Mr. Sopko. I don't have that information right now. I can 
get that for you.
    [The information referred to can be found in the Appendix 
on page 93.]
    Mrs. Hartzler. Okay. Very good. Well, I appreciate you 
looking at that.
    I wanted to ask the other witnesses regarding the ITEF 
issues that you raised. Is it concerning to you that it took 
three separate reports before the Department of Defense, you 
know, started agreeing to some of these changes, or would you 
say that they have been doing the needed changes and following 
your recommendations from day one?
    Mr. Roark. Well, for our two reports, I think it is 
important to remember that the command--the Army commands that 
we are discussing here today, in Kuwait and Iraq, asked us to 
come in and take a look at their procedures. So, you know, in 
late 2014, Congress created ITEF, and so then in 2015, we were 
starting to procure equipment and so forth.
    And so in 2016 when we did these two audits, they said, 
hey, I am adopting this new mission, can you come in and take a 
look at, as an independent party, how we are doing and, you 
know, make recommendations for how we could improve. And so we 
did that, and we thought the commands were very receptive to 
our feedback and did take corrective actions in a timely 
manner.
    Mrs. Hartzler. Great.
    Ms. Farb. My response would be similar. They have been 
working with us. They asked for our assistance in helping us to 
implement the recommendations. They actually also asked for 
underlying data to help identify the particular problems we 
were pointing out within the data system that they provided.
    GAO's previously done work on the standard operating 
procedures issues throughout the theaters that we have been in, 
and we have seen in the past that they have, you know, been 
very receptive to our recommendations. And so we look forward 
to our future work in terms of looking at this.
    Mrs. Hartzler. Very good. Ranking Member Moulton.
    Mr. Moulton. Thank you very much, Madam Chairwoman.
    So, Mr. Inspector General, you mentioned that you are 
opening a criminal investigation into this incident. I mean, it 
certainly seems to me like a place where we might not just find 
a mistake but fraud or other improprieties.
    What more should we be doing on this subcommittee to get to 
the bottom of what went on here?
    Mr. Sopko. Well, I would suggest that hearings such as this 
are important, bringing the spotlight of oversight is 
important.
    I would suggest, and I had the good fortune to work for Sam 
Nunn as well as for John Dingell on the famous or infamous 
``Dingell-grams'' that went out. I wrote quite a few for 
Chairman Dingell. I think a ``Hartzler-gram'' should get known 
around the Department of Defense in which hard, tough questions 
are asked, and we are happy to help you in addressing those 
questions.
    But one question you could ask, and I think the full 
committee should ask, is how many people identified by my 
office, by the DOD office, or by GAO have actually lost their 
jobs because of wasting taxpayers' dollars? Send that letter to 
the Department of Defense. And while you are at it, send one or 
have somebody send one to USAID [United States Agency for 
International Development] or DOD and the Department of State.
    I bet you no one. We identify these problems, no one is 
held accountable. We make the recommendations, and they sound 
really good, and you could get great procedures. Everything we 
identified were in the FAR [Federal Acquisition Regulation]. 
They totally ignored it. No one is being held accountable.
    Mr. Moulton. Mr. Roark, can you comment on that? Has anyone 
been held accountable for this gross error, this gross 
negligence?
    Mr. Roark. Well, we have been working on audits in 
Southwest Asia, in both Iraq and Afghanistan and in supporting 
countries like Kuwait, for many years, and each time we write a 
report or do an audit, we do think about does this--do the 
circumstances here meet the need for an accountability 
recommendation to hold someone accountable?
    But in the end, as IGs [inspectors general], we can make a 
suggestion or recommendation to the command, but we--it is up 
to the commands to take action on whether or not to hold 
someone accountable. So there are pretty frequently, 
recommendations in DOD----
    Mr. Moulton. I understand that. But do you know in this 
instance, has anyone been held accountable?
    Mr. Roark. In this instance, I am not aware of any.
    Mr. Moulton. Mr. Sopko, to go back to you, are there any 
specific witnesses or other folks that you think we should call 
before this committee to help get to the bottom of what is 
going on here?
    Mr. Sopko. Well, I would ask that you don't call any other 
witnesses until we get to the bottom of the criminality. But 
there are some, probably, some of the contractors, some of the 
contracting officers. But I am happy to sit down and discuss 
names of people privately.
    But, again, we are opening up an investigation. It is just 
in the beginning stage. So we can work with the committee if 
you want to talk about people, but I would defer, at least on 
this case--but we have many other cases that we have closed. We 
are happy to give you the names and locations of people who--
remember, I have no subpoena authority over an individual. I 
cannot compel testimony. Okay? And I----
    Mr. Moulton. We will take you up on that offer.
    Mr. Sopko. Thank you.
    Mr. Moulton. Thank you very much.
    Now, stepping back from this specific instance, can you 
comment on some of your observations--you have been doing this 
job for a long time, on the broader circumstances that lead to 
these situations?
    The Armed Services Committee of the House of 
Representatives should not have to pass a specific provision in 
our law to detail the supervision of the purchasing of uniforms 
for the Afghan National Army. I mean, at a certain level, that 
is absurd.
    We ought to just have an environment where these 
deficiencies, these mistakes, are caught, where proper 
supervision exists from the beginning so that gross--this gross 
waste of taxpayer dollars simply never occurs.
    So can you comment on those broader--the broader situation 
here?
    Mr. Sopko. You know, the questions you are asking are the 
type of questions I would love to discuss in more detail. And I 
think we could have a broader hearing just about how to fix the 
government.
    I have been looking at in this job----
    Mr. Moulton. I am not trying to fix the whole government.
    Mr. Sopko. Well, at least my little world for the last 6 
years. And then I have 25 years on the Hill doing oversight, 
and I know the frustration you feel.
    But based upon my experience in Afghanistan, I think a 
couple of things are very clear. Number one, there is no 
accountability. People are not being held accountable for 
wasting money.
    We occasionally indict people, but we only indict the slow 
and the lame. I mean, basically, that is about all we are 
getting. So people are not held accountable.
    We have a disincentive for good government. And I don't 
want to imply, first of all, that the people we send to 
Afghanistan are either very stupid or very venal. They are some 
of the best, bravest people in the world. But we have given our 
procurement people, our ambassadors, our generals a box of 
broken tools, the same broken tools that you see in the press 
with the VA [Department of Veterans Affairs], with the 
Department of Energy, Department of Commerce, HHS [Department 
of Health and Human Services], you name it.
    Procurement is broken. HR [human resources] is broken. Our 
rotation, we have what we call in Afghanistan the annual 
lobotomy. Every year we change everybody out. I think I have 
gone through 8 or 10 commanders of CSTC-A in the 5\1/2\ years 
that I have been there, 8 or 10.
    Mr. Moulton. How many times was General Eisenhower replaced 
due to an annual rotation requirement?
    Mr. Sopko. Zero. He was there the whole length of duration.
    I know we could also talk about Vietnam, while it may not 
be the best analogy. But what I am saying is--and I don't want 
to be hated by every spouse of every senior military officer, 
but the problem is this annual rotation. And in some areas, it 
is even shorter. There are FBI [Federal Bureau of 
Investigation] agents, there are Commerce officials, there are 
people there for just months at a time. They don't even know 
where the latrine is by the time they leave. So they are never 
ever held accountable for the screwups, because they are not 
around when the screwup is discovered by us, because we usually 
don't get there.
    DOD IG [Department of Defense Inspector General] and GAO 
and my office is really good. But by the time we get there, it 
is like the detective show you've seen on TV. If we are lucky, 
there is a chalk outline of the body. But usually, it is 7 
years old. Remember, this contract is 7 to 10 years. It is 
ongoing, but the problem started back then. So there has to be 
something done to fix our personnel system. There has to be 
something done to fix our procurement system. We have to stop 
this disincentive of spend money.
    I don't know how many contracting officers have told me, I 
get rewarded at the end of the year on how much money I put on 
contract, not on whether the contract is good or not.
    We have to change that system, and I would highly recommend 
take a look at the HR system in the Defense Department, take a 
look at the procurement system, take a look at the incentives 
that you are allowing to occur, which create this problem.
    And that may be the first place and the best place to look. 
Look at the personnel system and look at the incentives.
    Mr. Moulton. Great. Thank you very much. Madam Chairwoman.
    Mrs. Hartzler. Thank you. Mr. Gaetz.
    Mr. Gaetz. Thank you, Madam Chair.
    It appears as though we bought uniforms that didn't work 
and paid about $28 million more than we should have to do so.
    One of the reasons why that is so frustrating to all of us 
here on this panel is that we are the ones, Republicans and 
Democrats, who work hard every day to convince our colleagues 
that we need the resources in the Department of Defense to 
effectively protect the warfighter and military families. 
Circumstances like this undermine our bipartisan efforts to 
support warfighters and their families.
    This appears to be either an event of stupidity or 
corruption. What is your assessment as to which of the two we 
are facing?
    Mr. Sopko. I don't mean to dodge the question. That is why 
we are doing the investigation right now. It is either venality 
or it is stupidity, or it is, like I say, it is a system that 
was set up where the person who was working this contract was 
rewarded by getting the contract out.
    Mr. Gaetz. Is there any evidence that these proprietary 
uniforms have greater capability than the nonproprietary 
patterns?
    Mr. Sopko. We didn't look at that. I mean, we are not 
assessing whether the proprietary uniform is better or the 
camouflage pattern is better or not better. We are just saying 
that there were proprietary uniforms; there are also 
nonproprietary.
    Mr. Gaetz. What is our current working theory as to why the 
customer was only shown the proprietary product of one Canadian 
company?
    Mr. Sopko. We don't know. That is why we are doing the 
investigation.
    Mr. Gaetz. And we have no mechanism to determine whether or 
not that is stupidity or corruption at this time?
    Mr. Sopko. Well, we hope after the end of the criminal 
investigation we will find that out, but that is what we are in 
the process of doing right now, sir.
    Mr. Gaetz. What is your expectation on the timeline there?
    Mr. Sopko. That is frustrating for me, as for everyone 
else. It takes a long time. One of the problems is, I don't 
have subpoena authority to compel somebody to talk to my 
agents. They can slam the door in their face.
    Mr. Gaetz. Is there any person that you wish you could 
subpoena now that you can't?
    Mr. Sopko. Well, I can't subpoena anyone.
    Mr. Gaetz. Right. Who would be the first three people you 
would subpoena if you had that power?
    Mr. Sopko. Well, I don't want to name names, because I 
think that is sending the wrong message to the people we are 
investigating.
    Mr. Gaetz. I disagree. I think it sends exactly the right 
message. I mean, our committee has the subpoena power. So if 
the challenge is we have no timeframe, we have no mechanism to 
find out whether people were stupid or corrupt, we have 
subpoena power in the Congress, you don't, it seems as though a 
partnership here would be beneficial.
    Mr. Sopko. Well, I am happy to discuss names privately, 
sir, at any time with the chairman, or ranking member, or you.
    Mr. Gaetz. Well, Mr. Roark, you indicated that your office 
has made accountability recommendations. Did those 
accountability recommendations name names?
    Mr. Roark. We used the position title of the person, that 
is usually how we do it.
    Mr. Gaetz. And would you be willing to provide those 
accountability recommendations to the subcommittee so that we 
might be able to see who the individuals are that you seem to 
believe ought to be held accountable?
    Mr. Roark. We can. Now, just for a clarification, the 
accountability recommendations that I have issued in the past 
are on that body of audits that I have done over time not on 
this particular audit--these two audits we are discussing 
today.
    Mr. Gaetz. Mr. Roark, I believe you gave testimony about 
weapons that were not properly guarded. In that particular 
circumstance, was there an accountability recommendation that 
came from your office?
    Mr. Roark. Sir, for the weapons storage issue, we made 
recommendations in real time to the command, and oftentimes 
they fix that right away.
    In Iraq, I am thinking of the example where they used the 
storage lot that had holes in the fence. And, really, they 
were--that was the only yard that they were given, the only one 
that was available, and then they--I think the reluctance to 
fix that at the time was that they knew they were moving to a 
more secure location down the road. And so we kind of expedited 
that by recommending that they fix the fence no matter whether 
it was just for a short time or not, just because of the 
security risk there.
    Mr. Gaetz. And so in that instance, was there an 
accountability recommendation tied to a specific individual?
    Mr. Roark. No, we did not make an accountability 
recommendation for that instance. We just basically talked with 
the command and made recommendations with them and then wrote 
about that in our report, and they fixed the problem in real 
time, so.
    Mr. Gaetz. And I will go back to Mr. Sopko for my final 
question.
    Will you--can you illuminate this committee as to any 
evidence of improper influence that this particular Canadian 
company may have had within our Department of Defense as it 
related to the sweetheart circumstances that led to their 
products being the only products shown to the customer?
    Mr. Sopko. At this stage, I can't. We haven't developed it 
that much.
    Mr. Gaetz. I yield back.
    Mrs. Hartzler. Thank you. Mr. O'Halleran.
    Mr. O'Halleran. Thank you, Madam Chair.
    I am new at this. And I am sitting here in amazement, and 
we have just approved a tremendous amount of money within this 
body here to go out and fund new weapons, new uniforms, new 
personnel, and yet, we have a system before me that sounds like 
it is systemic in its problems with audits.
    Now, I know the Secretary, when we were listening to him at 
the beginning of the year, made it clear that he understands 
that there is a problem within the system. But I can't believe 
that we haven't known that there is a problem within the system 
for a number of years.
    And so I am--and I am confused by the fact that there is a 
trail of letters to a commander, Mr. Roark mentioned it. And is 
there--is that commander required to send back to you the 
information--the reason why they rejected what you wanted to 
have done or recommendations?
    Mr. Roark. So in these cases the commanders did not reject 
our recommendations. They adopted them and agreed with them. 
But I think the process you are discussing is follow-ups. So we 
will make a recommendation and then the command will either--
you know, either agree or disagree with it. In this case, they 
agreed and took action.
    However, we don't take their word for it. We either visit 
ourselves to do follow-up and make sure it was done, or we 
request documentation and photos to prove that it was done so 
that we can close out that recommendation.
    Mr. O'Halleran. I was mentioning before about the stupid or 
corrupt. And I just, sitting here, feel that is going to happen 
in any system. But what can't happen in any system is that the 
system is broken, and that the system is at play here. If you 
don't have enough auditing power, then let us know. But if we 
are at a level here where the taxpayer's money is being spent 
without any accountability or limited accountability, then we 
have a real problem.
    So my question is, to what extent does the current 
organizational structure help to--help the Department's ability 
to ensure accountability for the program?
    Mr. Sopko. Any witness? I didn't----
    Mr. O'Halleran. Any witness.
    Mr. Sopko. You know, I may defer to my colleague from DOD. 
I don't think the way the system is currently created helps 
accountability in the DOD, State, AID, or anywhere. I hate to 
say that. I don't--I am usually not invited to parties like 
this, because I always am the--like the crazy uncle; you don't 
want him at the wedding.
    But it is broken. I hate to say it. The system is broken on 
accountability, because we are not holding people accountable. 
Because by the time we get out there, the money has been spent, 
and the person who was involved is either retired or long gone. 
Because there is a 2-year or shorter appropriation cycle, and 
everyone's got the incentive to spend money.
    It is--we have got to get ahold of how the government is 
working. It is not working quite well or as well as we would 
like to see it work.
    Mr. O'Halleran. So how many times have you requested that 
the system be changed in written form or verbally or to people 
up the ladder?
    Mr. Sopko. Well, I am like a broken record in the last--
this current job. Every time when I have been asked to testify, 
and I think some of you have heard me testify before, I have 
talked about that, that what we need to fix is not Afghanistan 
or how we do in Afghanistan. We need to fix it back here.
    Mr. O'Halleran. That was my--that was what I thought needed 
to be done, that this is just a systemic problem throughout the 
process. But I would like to know, any one of you, the three of 
you, how you have worked to change it and so we can identify 
how many times within this group that there has been a request 
to change it, and it hasn't been changed?
    Mr. Sopko. I don't know if I should hog the answer, but 
this is also one of the problems. I am the Inspector General 
for Afghanistan Reconstruction. I have no jurisdiction over OPM 
[Office of Personnel Management]. I have no jurisdiction over 
the internal procurement at DOD, although the GAO has had 
defense procurement on a high-risk list since 1991.
    I mean, that is kind of telling you we have a problem with 
DOD procurement. But I have no jurisdiction. That is also part 
of the problem. Every one of the IGs are limited.
    Now, I have jurisdiction over any money spent on 
reconstruction in Afghanistan. And I am unique of any IG, but 
usually, we are stovepiped, and I think that is the problem 
here.
    Mr. O'Halleran. Thank you, Madam Chair.
    Mrs. Hartzler. Thank you. Mr. Banks.
    Mr. Banks. Thank you, Madam Chair. There is so much to 
cover, and yet I only have 5 minutes.
    But, Mr. Sopko, thank you for what you do. I think I told 
you before, when I was in theater, Sopko was a four-letter 
word. But on behalf of the American taxpayer, I sure appreciate 
what you do in exposing situations like these.
    To begin with, on the note of uniforms, as I understand it 
there would have been a memorandum of request [MOR] that was 
signed by the commander of CSTC-A, the comptroller of CSTC-A, 
and others that would have authorized the purchase of the 
uniforms. But in your testimony, you talk about pattern of 
issues between November of 2008 and January of 2017. Would that 
imply that there were numerous memorandums of requests, or was 
there a single MOR that was involved in this procurement?
    Mr. Sopko. I don't think we have found those records at 
all. Let me ask my colleague.
    We don't have them, and CSTC-A doesn't have those records.
    Mr. Banks. But would it be safe to assume that there were a 
number of issues--I mean, in your testimony, between November 
of 2008 and January of 2017, a pattern of issues resulted in 
what you have exposed, therefore, there were, as you said, 
numerous commanders of CSTC-A that would have been involved in 
these, in a pattern of issues throughout those years rather 
than a single accountable commander at the beginning--at the 
outset of the procurement?
    Mr. Sopko. You are correct, but we have found no 
justification for lack of competition, no----
    Mrs. Hartzler. Could you put your microphone on, please.
    Mr. Sopko. Oh, I am sorry.
    We have found no records in CSTC-A dealing with the one 
source, the use of the brand name, the acquisition planning, 
market research, or describing agency needs. So none of those 
have been signed.
    And I know where you are getting to. When you do a sole 
source over a certain amount, it has to go up the chain. We 
found nothing.
    Mr. Banks. Okay. But, again, I want to emphasize. I want to 
move on to something else very quickly. In your testimony you 
said between November of 2008 and January 2017, DOD spent 
approximately $93.8 million to procure X number of uniforms, et 
cetera. That means a pattern of issues in almost a 10-year span 
period, which would lead me to believe rather than stupidity or 
corruption, as one of my colleagues mentioned, that this is the 
result of a broken system at the end of the day that needs 
fixed rather than making accusations about stupidity or 
corruption.
    Mr. Sopko. We don't know until we do the investigation.
    Mr. Banks. Fair enough. Moving beyond uniforms. I have with 
me a copy of your 2012 report regarding end-use monitoring 
findings for vehicles provided to ANDSF [Afghanistan National 
Defense and Security Forces].
    Your data at the time described a total shipment of 30,761 
vehicles shipped to ANDSF through 2010, and based on my own 
experience in theater as recently as 2015, I know that we far 
surpassed that number in 2017. However, while your report from 
2012 was generally positive, I am concerned about the struggles 
that I witnessed in terms of effective EUM, or end-use 
monitoring, of vehicles in theater, and the ultimate lack of 
accountability when it comes to the resources purchased by the 
American taxpayer.
    So given our current troop levels, I am concerned about our 
ability to track the equipment that we are providing to our 
Afghan partners, whether weapons and ammunition, or uniforms, 
or vehicles, et cetera.
    Can you describe for us the current environment in 
Afghanistan when it comes to maintaining accountability of 
resources provided to ANDSF? And since I have only got a minute 
and less than 20 seconds, can you also describe with a new 
ambassador chosen in Afghanistan, your ability to get out 
around the country and do the important work that you do, 
whether or not there are any limitations on your ability to do 
that with the current leadership at the embassy?
    Mr. Sopko. Real quickly, we would have to get back to you 
on what the state is on the equipment. I don't have the data. 
As for ability----
    Mrs. Hartzler. Mic, please.
    Mr. Sopko. Sorry.
    I would have to get back to you on the equipment. We have 
done a number of audits, but I don't have that data in front of 
me as to what the status is, and we are happy to get back to 
you.
    [The information referred to can be found in the Appendix 
on page 93.]
    Mr. Sopko. As to our ability to get around, we have had 
problems. Over the last year, we have seen a greater reluctance 
to get out.
    Now, the security situation has deteriorated, we understand 
that. But that is a serious problem. Even when we have U.S. 
military guardian angels protecting us, and even on my last 
trip, General Nicholson wanted me to visit a site that the U.S. 
military normally goes to, and we have an MOU [memorandum of 
understanding] with the Department of Defense to get us out 
there, the ambassador refused to allow me or my staff to go 
there. So that is problematic.
    There was no objection for security reasons. It was just an 
objection--and, again, the explanation I got was, I am chief of 
mission, and I am the one who is accountable, and I am not 
going to let you go.
    Now, I was surrounded by a lot of guys in green uniforms 
and there are green uniforms, not the Afghans, who had a lot of 
high-powered weapons, and I felt very secure. I have always 
felt secure. My staff has always felt very secure being 
protected by the U.S. military. But for some reason, the acting 
ambassador has abrogated our MOU with the Department of Defense 
and basically installed his restrictions on that.
    That is a problem. If that continues, we will not have a 
whole-of-government approach in Afghanistan. We will have a 
hole in our government approach to Afghanistan. And what that 
means is no matter how many troops you give, it is not going to 
get an answer.
    I think I am speaking too long.
    Mr. Banks. Thank you.
    Mrs. Hartzler. Yes. Thank you. Mr. Suozzi.
    Mr. Suozzi. Thank you.
    First of all, thank you very much for your testimony and 
for your good work you have done in this instance.
    My background, I am new to Congress. I am a freshman, but 
my background is as a certified public accountant and an 
attorney. I was the mayor of a small city and a county 
executive of a very large county with a $2.8 billion budget.
    We have heard it our entire lives, everybody in this room, 
about the $500 hammer. We hear about waste, fraud, and abuse 
that takes place in huge government enterprises and, certainly, 
in the DOD. And more recently, people have come to talk to me 
about corruption in Iraq and Afghanistan from the Iraq and 
Afghani side.
    These issues that you are bringing up, I agree with 
Congressman Banks, you know, this is a systemic problem that 
exists that we need to address.
    I am very attracted to the idea when you suggested earlier 
that, you know, we can help to bring a higher profile to some 
of the work that you are doing, not just by doing hearings like 
this, but if you can share with us areas that you would like us 
to probe in further by sending a letter, by making a phone 
call, by trying to call attention to areas where there is waste 
that is taking place, where there are bad decisions being made 
or procedures or processes don't exist.
    Mr. Sopko----
    Mr. Sopko. Sopko
    Mr. Suozzi [continuing]. Sopko, you have been doing this a 
long time. You have been around this stuff for a long time. Is 
this, you know, an isolated incident do you think that you are 
seeing here, or do you see a systemic problem that is taking 
place?
    Mr. Sopko. No, it is not isolated, sir. It is a systemic 
problem.
    Mr. Suozzi. So what can we do to help you to shine a light 
on these things? You know, often this stuff becomes partisan, 
one party is going against the other party.
    Now, with the change in administration, this is a good time 
for us to work together on a bipartisan basis to try and make 
our Defense Department more efficient and less wasteful. And we 
are talking about hundreds of billions of dollars, and there 
has got to be opportunities for us to work together as a team 
to try and identify places that we can improve the procedures 
and processes to get rid of this waste.
    Mr. Sopko. Congressman, I am happy to come up, and I can 
bring my staff up and brief any and all of you, including the 
chairman and ranking member, on issues where you can shine that 
light.
    And having worked on your side for 25 years, that is so 
important. And I will take you up on that offer.
    And, Madam Chairman, I will take up--ranking member also--
on any offer you have.
    We have a lot of areas where you can help us on, and that 
is the important role of working together. And as I have told 
people, waste is not red or blue. Waste is green. I am here to 
try to save the green, and I think all of you are, too. And we 
are looking for champions such as yourselves to do that.
    So--and I am certain all of my colleagues in the DOD IG and 
the GAO would be happy to do that, too. I have a list we can 
give you.
    Mr. Suozzi. I will have a staff member of mine get your 
number, and you are going to get his number. His name is 
Connor. He is in the back right now. We are going to work 
together. And I am going to take you up on that briefing idea. 
If any of my colleagues want to join, certainly.
    Madam Chairwoman, I don't want to overstep my bounds here, 
but if you don't mind, I want to pursue this further. I am very 
interested in this topic, and I would like to work with you to 
try to address this issue.
    Thank you, Madam Chairwoman.
    Mrs. Hartzler. Thank you. And thank you for your 
contribution. Your expertise on this subcommittee, really, 
really appreciate that.
    Mr. Suozzi. Thank you so much.
    Mrs. Hartzler. Absolutely.
    We are going to go now to our last member of the 
subcommittee, our newest member, Mr. Jimmy Panetta. We want to 
welcome you. We look toward to having you here on our 
subcommittee as well as Armed Services Committee.
    And so I will be happy to turn it over to you if you have 
any questions.
    Mr. Moulton. Madam Chairman, if I may, Representative 
Panetta is also a former Naval Intelligence officer and someone 
who served, himself, in Afghanistan.
    So we particularly appreciate your expertise here this 
afternoon.
    Mr. Panetta. Great. Thank you.
    Thank you, Madam Chairman, Ranking Member Moulton, other 
members of the subcommittee. It is an honor to be here, 
absolute honor to be here.
    Thank you to the witnesses who came here, prepared and 
testified. I apologize for being late. I did miss some of your 
testimony. I was meeting with the Chief of Naval Operations, 
Admiral Richardson.
    And one of things we talked about, I told him I was going 
to my first subcommittee hearing, and it is on oversight. I 
said, what do you think, you know, for the Navy what would be a 
big change when it came to these types of issues? And he talked 
about procurement.
    And he said, you know, for now, right now--and he mentioned 
a couple of ships, including the Ford, Zumwalt, that he was 
having issues with, and he talked about how the procurement 
process is too long, too--contracts are too far out, especially 
with the advances of technology and how quick those are coming 
now, and that you needed to shorten them, shorten those 
contracts.
    Mr. Sopko, obviously, thank you for your work. You 
mentioned your box of broken tools. And the first one you 
mentioned was procurement. And I don't know if this is 
something where you can talk to us about, but I think right 
now, with the procurement, with an issue like this, how would 
we make it better? How would we fix that broken tool of 
procurement?
    Mr. Sopko. There are many ways to do that. The first of all 
is to eliminate the incentive to spend quickly. That is one 
thing. And that is a--something I don't think you can 
legislate, but you could, but I think the first thing is look 
at how people are rewarded in the contracting office.
    If that is what they tell you, what they are telling me and 
my staff out there, then we have a disincentive for good 
contracting. We just have an incentive for pushing money out 
the door.
    I think the other issue is in procurement is the files and 
the records are horrendous. I think one of your colleagues 
asked before, he said, this is a 10-year contract. Didn't they 
do X, Y, and Z. We can find no records. They don't keep them.
    Now, if you were working in the private sector, you would 
go to jail for the kind of records that the Department of 
Defense keeps. That is something we can maybe learn from the 
private sector. Somebody here was a certified public 
accountant. He would be shocked at the quality of records. And 
we did a whole investigation on the task force for business 
stabilization and operation, and we are going to be issuing a 
final audit on that. And it took us so long, because there was 
nobody in the Department of Defense who could discuss a nearly 
billion dollar program.
    Mr. Panetta. Culture, laziness? Where did that come from?
    Mr. Sopko. No incentive. No incentive. Not my watch. Not my 
job. That is the other thing, and that goes to procurement is, 
you do the procurement, then you are gone.
    So when the proverbial stuff hits the fan, you are in 
another job, you may be in a whole different area of the world.
    Mr. Panetta. That goes to your third point of annual 
turnover, the constant turnover? You mentioned HR?
    Mr. Sopko. Well, the whole HR system is--we--and for 
procurement we--President Reagan was faced with the buildup--
and I think Congress was at the time, and I am old enough to 
remember that, and we tried to design a real procurement core 
where people had incentives to do procurement and to stay with 
it. And I think that has kind of dissipated.
    I don't think people are there. But there are probably 
smarter people on my staff who could give you a list of things 
to fix procurement.
    And, again, we are happy to discuss that. Again, my world 
is Afghanistan. My colleagues here can speak, the GAO and DOD 
can also speak of broader issues.
    Mr. Panetta. Thank you. You have been doing it a while, and 
obviously, we have the uniform issue.
    Mr. Banks talked about a vehicle issue. Is this the worst 
you have seen it? Have you seen--you have got worse examples?
    Mr. Sopko. Oh, far worse. This is de minimus in comparison. 
We spent $8 billion on counternarcotics; $8 billion, with a 
``b.'' And there are more drugs being put out now than when we 
started.
    The insurgents are getting more drugs, money now than 
before. The insurgents are bribing more Afghan officials than 
before. We occasionally catch, again, the slow and the lame and 
those that don't pay the bribes, but that is one of the biggest 
things. That is $8 billion.
    We have buildings that are falling down. We had a building 
down in Camp Leatherneck, a 64,000 square-foot building, the 
best-built building in Afghanistan. The general who was there 
said, I don't want it, don't build it, I won't use it. His 
supervisor, General Allen, said, We don't want it, don't build 
it, we won't use it. By the time it was built, it was built for 
the surge. By the time it was finished, the surge was over, and 
we were pulling out.
    We gave the name of the general who was responsible for 
ignoring General Allen and ignoring the Marine Corps general 
there. The Department of Defense--and not under the current 
leadership, I must say, but in the prior leadership--basically 
said, we didn't find the waste of 60--of $36 million enough to 
hold the general accountable.
    Mr. Panetta. Thank you. Thank you, Madam Chairman.
    Mrs. Hartzler. Thank you. We are glad Mr. Jones is joining 
us today. And we appreciate your interest and your advocacy for 
wise spending. I turn it over to you.
    Mr. Jones. Madam Chairman, I thank you, and I thank Mr. 
Moulton as well.
    You know, I have been here 22 years. I was here in 2001 
when we voted for the AUMF, authorization [for use] of military 
force on Afghanistan. I have sat in many, many hearings on the 
Armed Services Committee, both subcommittee level and full 
committee, and this is just what is just absolutely disgusting 
to the American people. If this could be on national TV, you 
would probably be having rallies out there right now 
protesting, because there is no one held responsible.
    Mr. Sopko, you and your staff have done numerous reports 
through the years. I have read quite a few of them. Not all, 
but quite a few of them. You have recommendations in those 
reports that the American people can see as well as Members of 
Congress.
    I think about the stories about ghost soldiers: we pay 
200,000 Afghans millions and billions of dollars, don't even 
exist. Nobody is accountable for that. You testified to the 
Senate, and you told Senator McCaskill, I believe it was, she 
asked you about the fact that we bought nine goats for $6 
million. Your people looked for the goats, you can't find them, 
and maybe somebody ate them. Nobody knows.
    Mr. Sopko. But they were good goats.
    Mr. Jones. Well, they were from Italy, I remember that. 
They were from Italy. They were quality goats to start a goat 
business. It is just one thing after another, after another, 
after another. I do have a question.
    I wrote to President Trump, had it delivered on July the 
18th. I wanted him, if he was going raise the troop levels in 
Afghanistan, to please come to Congress, ask Congress to meet 
its constitutional responsibility and have a debate.
    After 16 years, we have had no debate on the future of 
Afghanistan. I want to read this, and then I am going get to 
the question:
    You also tweeted that your let's get out of Afghanistan, 
our troops are being killed by the Afghanis we train and we 
waste billions there. Nonsense. Rebuild the United States of 
America.
    In addition, I put the next paragraph that: Mr. President, 
I agree with those remarks, and so does the 31st Commandant of 
the Marine Corps, my friend and unofficial adviser General 
Chuck Krulak, as he said in a recent email to me, no one has 
ever conquered Afghanistan and many have tried. We will join 
the list of nations that have tried and failed.
    That is Commandant Krulak not Walter Jones.
    This is what is to me why the taxpayers are so frustrated 
with Members of Congress, because every time we get these 
hearings, and I want to thank the chairman again and ranking 
member, we will keep funding Afghanistan. To your point and the 
point of the other two witnesses, nobody is ever held 
responsible. It just goes on and on and on. Our Nation is $21 
trillion in debt. We are headed for an economic collapse, but 
yet, we will find money to keep spending in Afghanistan.
    And thank you and all the others who are here today for 
whatever you are doing to try to bring some accountability to 
the taxpayer. This is what I have never heard--and I am going 
to ask in the minute and 40 seconds left: If we have spent over 
$800 billion in Afghanistan, what percentage of the $800 
billion would you estimate should be written off as waste, 
fraud, and abuse? Five percent? Six percent? Ten percent? What 
would you estimate should be written off as waste, fraud, and 
abuse out of $800 billion of the taxpayers' money?
    Mr. Sopko. Congressman, I--again, I am not trying to avoid 
the issue.
    I can't tell you what percentage. I know Stuart Bowen, who 
was the SIGIR [Special Inspector General for Iraq 
Reconstruction] in Iraq, came up with a number and was later 
attacked because he had no basis. And I would have no basis for 
giving it. All I can say is too much, way too much. Billions, 
but I can't tell you what percentage. I would love to, but I 
would be spending all my time--I can't get records on ongoing 
contracts nevertheless go back to that.
    And of course, of that $800 billion, a lot of it is the 
warfighting. And that is extremely difficult. I mean, did they 
fire too many shells this day or less? That's more difficult. I 
really can't tell you. But too much was wasted.
    Mr. Jones. Well, I guess the last comment, because time is 
running out. I would hope that the Congress would feel as I do 
that we are just as responsible for waste, fraud, and abuse 
when we are told by experts like the three of you here today of 
what is going on and, yet, we keep spending billions and 
billions of dollars, and it just keeps going on and on. It is 
just like it is endless in this black hole of money, money 
going while Americans are being killed there.
    And so Madam Chairman, and Ranking Member, thank you for 
this time.
    Mrs. Hartzler. Thank you.
    Now, we do have two panels today, and the Department of 
Defense officials are coming up here in a minute. But I do want 
to give members an opportunity for a second round of questions.
    I do have a couple of questions still for this panel I want 
to address. With the GAO, your testimony highlighted the 
importance of maintaining accountability over the equipment 
that the DOD provides to Iraq security forces.
    And you alluded to it in your testimony, but I wonder if 
you can go into a little bit more details, what is the nature 
of the interoperability and data reporting issues that you have 
identified as a potential root cause of the problem and how can 
DOD improve them in a meaningful way?
    So, basically, just walk through the process. We send over 
some guns or some body armor, and the different steps that are 
needed and what has been lacking and what you think needs to be 
done or have they addressed those issues to keep track of 
everything?
    Ms. Farb. Well, as I mentioned, there are three phases, 
generally speaking, in the process of sending the equipment 
over. So there is the procurement and shipment from the United 
States, the staging in Iraq and Kuwait, and then the transfer 
over to the Government of Iraq or the Kurdistan Regional 
Government.
    We found that, you know, only the very beginning phase, the 
procurement and shipment phase, that the dates, the 
transportation dates were reported in the SCIP system, which is 
the Security Cooperation Information Portal, which is a system 
that should give end-to-end visibility to the Department over 
where the equipment is in the process. When we looked at the 
other two phases, we found no dates entered into the system at 
all.
    We did not determine the root causes ourselves. We 
suggested that--we made a recommendation to the Department that 
they should look into the root causes, because they are best 
positioned to understand the interoperabilities that we found.
    They could not explain exactly why we weren't seeing the 
dates in the system. We had a lot of discussions with staff, 
their contractor, and other experts, which is detailed in our 
report. And it seems to us that they should be able to sort of 
under--look under all of this and understand better where the 
breakdowns are.
    They did ask for our underlying data so that they could 
pinpoint some of the information that we were not seeing and 
try to go backwards and look from there.
    So I think that is a question that hopefully the second 
panel will be able to address.
    Mrs. Hartzler. Do they have--does our equipment have the 
identification number, like a bar code or something that can be 
scanned at various stages along the way, like, you know, FedEx 
and Amazon and post office and other people do?
    Ms. Farb. Yes, I am looking back at my team. Yes, it does 
have--there are identifiers, case identifiers, that are 
associated in the system as well as individual equipment and 
procurement----
    Mrs. Hartzler. So you say the dates weren't entered. Does 
that require somebody to type the date in, like scan it with a 
bar code scan and then record it, or can they just scan it?
    Ms. Farb. I think for the dates themselves, there are a 
couple of different ways that they are entered into the system. 
Either users can enter them into the system, or the dates are 
pulled from other DOD sources. So there may be an external data 
system.
    There are a couple of different information suites that we 
described also in detail in our report, that are used to pull 
the date--the dates from, but sometimes the dates are in those 
systems but not showing up in the Security Cooperation 
Information Portal.
    Mrs. Hartzler. Okay. I am going to follow up with this more 
with the DOD officials. But I did want to ask another question 
of Mr. Roark.
    Today, if the committee were to request that DOD provide 
the immediate quantity, dollar value, and location of equipment 
on hand in Kuwait and Iraq, how quickly do you estimate that 
information could be found, and is the Department working on a 
system to improve recordkeeping?
    Mr. Roark. So we asked the same question during our audits; 
so one of the biggest problems that we found was automated 
systems weren't being used, so a lot of things were based on 
individual spreadsheets and so forth.
    So we recommended that the commands implement some more 
recognized Army accountability and visibility systems. And so 
the commands wrote me back last week when I asked for a follow-
up to see what had happened over the last few months, and they 
indicated that they have implemented an automated system called 
the Global Combat Support System-Army. So that would be the 
system that they are using as of last week, and that would be 
the first place to go to try to get that information.
    Mrs. Hartzler. Okay. Very good. I think we have checked, 
there are no other questions on this round. So we want to thank 
you very much for your testimony.
    And now we will move on to the second panel. And as they 
are making the transition there, I am going to go ahead with 
the introductions.
    On this panel, we are going to be joined by Colonel David 
Navratil, the country director for Iraq at the Office of the 
Secretary of Defense for Policy; and Mr. Peter Velz, the 
director for Afghanistan, Resources and Transition, at the 
Office of the Secretary of Defense for Policy.
    So we appreciate you gentlemen being here, and sitting 
through the first panel. And that will probably be very helpful 
to you beginning our--your testimony and questions. You know 
some of the issues that have been raised by the subcommittee 
for questions, and so, you know, we appreciate you addressing 
those.
    So would you please go ahead and proceed with your 
statements.

 STATEMENT OF PETER VELZ, DIRECTOR, AFGHANISTAN (RESOURCES AND 
TRANSITION), OFFICE OF THE UNDER SECRETARY OF DEFENSE, POLICY; 
 AND COL DAVID NAVRATIL, COUNTRY DIRECTOR FOR IRAQ, OFFICE OF 
             THE UNDER SECRETARY OF DEFENSE, POLICY

    Mr. Velz. Chairwoman Hartzler, Ranking Member Moulton, 
members of the subcommittee, thank you for inviting Department 
of Defense witnesses to testify here today, and thank you for 
the unwavering support that you and the defense committees give 
to the men and women of the Department of Defense, military and 
civilian alike, who serve and defend our country all over the 
world.
    I am pleased to be here today to discuss the Department of 
Defense's efforts to ensure that taxpayers' funds used to 
train, equip, and sustain partner forces in Afghanistan are 
effectively managed and deliver results in support of our 
national security objectives.
    You have our written testimony, so we will each provide a 
brief overview of the key points. Secretary Mattis has made it 
clear that even small instances of inefficient or ineffective 
use of DOD funds can have strategic impacts that can 
reverberate negatively on the DOD mission and our budget 
situation, and that we must earn the trust and confidence of 
Congress and the American people that we are diligent stewards 
of taxpayer dollars.
    The Secretary expects all DOD organizations to end wasteful 
practices in any mission area and to bring forward proposals 
that make the Department more effective and efficient.
    This guidance certainly applies to the Department's 
management of the Afghanistan Security Forces Fund, or the 
ASFF, which is the subject of Mr. Sopko's testimony, and all 
other DOD partner capacity building appropriations.
    The Department greatly appreciates the strong support from 
Congress in general and the defense committees in particular 
for the ASFF appropriation. This appropriation is the center of 
gravity of the DOD mission in Afghanistan.
    It has enabled the United States and our coalition partners 
to transition responsibility for the security of Afghanistan to 
the Afghan defense and police forces. The Afghan forces have 
shown over the last 2\1/2\ years since the end of the U.S. 
combat mission that with limited U.S. enabler assistance they 
have been able to prevent the insurgency from achieving its 
strategic objectives, including capturing and holding a major 
city.
    The Afghan forces have also proven to be very capable and 
critical partners in our counterterrorism efforts in 
Afghanistan. The work by the DOD IG, the SIGAR, and GAO are 
critical enablers of the Department's oversight and our 
oversight of the ASFF and the Afghanistan mission.
    Throughout the course of audits, investigations, and other 
projects and through implementation of recommendations and 
production of their statutorily required quarterly reports to 
Congress, my office in the Office of the Under Secretary of 
Defense for Policy, as well as our commanders in the field and 
their staffs, work closely with the DOD IG and SIGAR, each of 
which have a robust presence in Kabul, Afghanistan, to identify 
opportunities for improvement.
    We also work closely with GAO in their efforts to support 
congressional oversight requirements. These interactions with 
oversight organizations provide valuable insights into our 
efforts to implement the Secretary's guidance to effectively 
manage these funds while achieving the critically important 
national security outcomes for which these funds are intended.
    The Department's congressionally chartered Afghanistan 
Resources Oversight Council, or the AROC, which has statutory 
authority to approve acquisition strategies and funding 
requirements for ASFF funding procurements, uses the results of 
IG work as a key input in the decision making and oversight.
    And I would note that the Secretary Mattis letter that you 
referenced, it was directed to the three chairs of the AROC. So 
he intended those three principals to be accountable for the 
actions of the Department and specifically in the ASFF area.
    We also use regular internal DOD staff interactions among 
OSD Policy staff, Joint Staff, CENTCOM [Central Command], and 
commanders in the field to ensure a common understanding of 
actions that are needed to improve accountability for the use 
of ASFF and to take appropriate corrective action when needed.
    Regarding the SIGAR report on Afghan National Army 
uniforms, we agreed with SIGAR's suggestion that a DOD 
organization with expertise in military uniforms should conduct 
an analysis of whether there might be a more effective, a more 
cost-effective uniform design and camouflage pattern that meets 
operational requirements.
    We believe this is the best way to determine the merits of 
the report's claim that DOD may have spent as much as $28 
million over 10 years more than was needed on uniforms that may 
be inappropriate for Afghanistan's operational environment.
    The appropriate DOD experts have begun developing a plan 
for conducting the study, which we expect to begin in the 
coming weeks. Secretary Mattis has made it clear in a recent 
memo to the three under secretaries, who are chairs of the 
AROC, as I mentioned, that rather than minimize this report or 
excuse wasteful decisions, DOD should use it as a catalyst to 
take aggressive steps to end waste in our Department.
    The bottom line is the Department must continually seek 
ways to improve and enhance existing oversight of ASFF, just as 
we must across all of DOD's mission areas, whether that 
involves providing assistance to our partner forces in 
Afghanistan and Iraq or ensuring the readiness of U.S. forces.
    As Secretary Mattis wrote in a memo to DOD personnel on his 
first day as Secretary of Defense, quote, ``Every action we 
take will be designed to ensure our military is ready to fight 
today and in the future,'' unquote.
    Madam Chairwoman, thank you again for inviting us to 
participate in this hearing, and I welcome any questions you or 
other members of the subcommittee may have.
    [The joint prepared statement of Mr. Velz and Colonel 
Navratil can be found in the Appendix on page 84.]
    Mrs. Hartzler. Thank you very much, appreciate you being 
here. And I very much appreciate Secretary Mattis' very, very 
prompt and timely statement on this that we need to get 
accountable and look into all of this. I think that is what is 
needed certainly.
    I did want to follow up on the subject of the uniforms. In 
our NDAA, we did put language in there requesting that this be 
looked at, and one of the recommendations is that the cost and 
feasibility of transitioning the uniforms of the Afghan 
military security forces to a pattern owned by the United 
States using existing excess inventory where available and 
acquiring the rights. That is something that is supposed to be 
looked at.
    And I know that you have just said that a study is going to 
be done by DOD. But I wanted to ask your opinion about that. 
How much excess inventory do we have currently of uniforms?
    And if we were to give those to the Afghan security forces, 
does that jeopardize our own security by having a foreign 
government wearing the same uniform perhaps that we had worn at 
least in the past?
    So can you kind of explain the excess inventory we may or 
may not have and the viability of perhaps using this in the 
situation?
    Mr. Velz. Madam Chairwoman, I will have to get you the 
specifics on how much each of the services may have as excess. 
I know that, for example, there might be some quantity of older 
woodland uniforms--I don't know for sure--that the Army might 
have.
    But, you know, what is excess and what is just in the 
inventory but not currently used and being held for eventual 
distribution is a fine science to determine. So I would like to 
get you a specific answer for the record on how much is 
available.
    [The information referred to can be found in the Appendix 
on page 93.]
    Mr. Velz. In general, I think it is probably best to focus 
on trying to make sure that we determine what is the actual 
best operationally suitable camouflage pattern and design that 
is cost effective for the Afghan forces. The statute, the HASC 
[House Armed Services Committee] amendment on requiring that 
study, I think it is entirely parallel with what we have signed 
up to do in the SIGAR report.
    Mrs. Hartzler. Okay. That will be very interesting to see 
certainly the cost involved. If you switched it totally over 
and whether you use excess inventory or whether you tried to 
replace it, it sounds costly to me.
    But I would like to ask Colonel Navratil, since you oversee 
Iraq in that issue, can you kind of go into detail about what 
steps have been taken to address the recordkeeping issue that 
the GAO as well as Inspector General of DOD identified.
    And have you coordinated with any private companies in our 
country, whether it be UPS or FedEx or any others on logistics 
and how they keep track of inventory? Have you incorporated any 
of their ideas?
    Colonel Navratil. Madam Chairwoman, thank you for that 
question. There have been several steps taken by mostly the 1st 
Theater Sustainment Command, as the IG and GAO reported is the 
theater sustainment headquarters, the logistic headquarters in 
charge of all this equipment going through to Iraq and through 
Kuwait.
    So as inspector general mentioned, on site, after some 
issues were identified immediately, the 1st TSC and supporting 
units took steps to either properly safeguard the equipment, 
banding and packaging sealing boxes, or replacing holes in 
fences that were identified by the inspector general. So those 
are a couple things to point to.
    For the GAO report, it has been only a couple months since 
those issues were identified, but I can tell you, we work 
closely again with 1st TSC. And what they have done is update 
their standard operating procedures, ensured that their 
supporting units below them, their at least three mentioned in 
the report, follow those procedures.
    What GAO didn't mention in great detail is we are going to 
be working with them probably for a year or more, I would 
estimate, on some kind of system. And they have an automated 
system.
    And we have heard reference to SCIP, the Security 
Cooperation Information Portal, that we are using and also 
GCSS-Army [Global Combat Support System-Army], which is Army, 
of course, you could tell by the name, Army internal system 
that maintains accountability for all Army units.
    But what we want to do is find the root cause using the 
Security Cooperation Information Portal and trace it back to 
the people here at Defense Security Cooperation Agency, where 
the order is essentially placed, to the points of shipment from 
the U.S. and finally to receipt in OCONUS [outside the 
continental United States], whether Kuwait or Iraq, wherever 
the final destination is and kind of find out where the system 
is broke and the process is now being followed.
    At this point we are not sure for that process that it is 
an IT issue or just a following-the-instructions issue. So we 
have heard GAO and SIGAR mention that some of these forces 
rotate through theater at periodic intervals. Army standards is 
9 months on ground and then back at home station for at least 
twice that long.
    So keeping the knowledge base is important, especially in 
written procedures, but I am not exactly sure the context when 
these investigations were performed what the situations were to 
see the unsecured weapons and the problems with the database.
    Mrs. Hartzler. So you feel confident the database is 
adequate. It is just a matter of personnel training and people 
not following procedure?
    Colonel Navratil. Ma'am, at this point, I cannot conjecture 
on the exact cause. That is why I said, we are not taking our 
time, but we are moving forward systematically with GAO to find 
out the steps from start to finish and where it is broken.
    What we do know is, 1st TSC has changed some procedures. So 
what we are going to do is measure the information in the 
portal since May when they have updated their SOP [standard 
operating procedure], they changed procedures. We will see what 
kind of reaction we have to that.
    And then we will just kind of narrow it down the root cause 
and work backwards and kind of reverse engineer the problem. So 
we will find out, if it is not in 1st TSC, where in the system 
it is broke.
    We are not sure the system is broke, the information 
technology system is broke or the procedure is at this point, 
but we think it is probably a combination of the two. We just 
want to make sure we find this and identify so we can be better 
like some of the civilian companies you mentioned.
    Mrs. Hartzler. What was that last phrase? Because I was 
going to ask, have you--it sounds like you have not visited 
with any private companies on how they do logistics. You're 
just trying to address this internally or----
    Colonel Navratil. No, ma'am. We have not yet. Let me caveat 
that. We have not yet, it is a great idea. I will have to ask 
some folks in the logistics community what they have done in 
the past. Because I know, the Army's transition, I have been in 
about 24-plus years. Since I first got in, it was all internal 
Army units delivering parts and other things by supply system.
    Then we transitioned to using commercial supply systems, 
whether overseas or CONUS. It worked very well CONUS, OCONUS, 
it worked in some cases. Not sure why it is not used more. I 
mean, I have a feeling some of these bulk procurements, the 
heavy lifts are better done by TRANSCOM [Transportation 
Command] and mobility forces. But we will have to find out more 
information for you on that question because I think it is 
valid.
    [The information referred to was not available at the time 
of printing.]
    Mrs. Hartzler. Thank you. Ranking Member Moulton.
    Mr. Moulton. Thank you very much, Madam Chairwoman.
    Going first to Afghanistan, Mr. Velz, can you talk about 
what changes DOD made in response to this particular incident? 
You talked about how you think that we did the right thing here 
on the committee by instituting this requirement. I would 
certainly like to think that that kind of thing is not required 
in the future. So what changes has DOD actually made?
    Mr. Velz. Ranking Member Moulton, I think the Secretary's 
memo that he just sent to the AROC principals, the Under 
Secretaries for Policy, ATL [Acquisition, Technology, and 
Logistics] and Comptroller, will really be the catalyst.
    Mr. Moulton. So it is safe to say, no changes have been 
made to date?
    Mr. Velz. The report has been out for about a month. The 
primary suggestion in the report was that we determine whether 
or not there is a uniform pattern that is more suitable.
    So certainly that was something that was not done 10 years 
ago, in 2007. There wasn't, you know, a real requirement study 
that is normally done for something like this. That is what we 
are going to do now. The new commander of CSTC-A is supportive 
of that approach, and so that is how we are remedying this 
immediate issue.
    The broader issue you are talking about though, as far as 
accountability for other aspects of execution of ASFF, I think 
that will flow from the Secretary's memo to the AROC 
principals. And then, you know, that will probably lead to 
further implementation guidance and more rigorous structures in 
oversight by those principals of decisions to expend ASFF.
    Mr. Moulton. So could you comment for a second on some of 
the recommendations made by the special inspector general, some 
of the things that he said about everything from rotations of 
units and commanders down to contracting procedures and 
incentives and whatnot.
    Did you agree with most of what he had to say? Did you have 
specific areas where you disagreed? We would really appreciate 
DOD's perspective on this.
    Mr. Velz. Sir, I think, in some of those areas I think 
there is a recognition within the Department at the senior 
levels that are involved in Afghanistan that those are issues 
and concerns. There are short-term rotations of people into 
theater.
    They may not have the exact expertise that is needed for 
the more complex jobs that are done in the security assistance 
arena, for example. When Congressman Banks was there, I think 
he probably saw some of this firsthand.
    And those are things that we are very cognizant of. General 
Nicholson is very cognizant of them. We are looking at things 
like making significant improvements to adviser training before 
advisers deploy.
    We also--we have put in place structures in the last 2 
years or so, a governance board, if you will, that my immediate 
boss is the chairman of that is bringing together people who 
have been advisers over the last 2 or 3 or 4 years to stay part 
of the dialogue so that they don't just do their year and 
wander off into DOD and they are never heard from again.
    So that is a mechanism that can bring in continuity of 
mission, and that is a really important principle for it 
because as people rotate in and out they lose corporate 
knowledge. So we are trying to put in place structures that 
maintain that corporate knowledge.
    Mr. Moulton. So just going to Iraq for a minute, Colonel 
Navratil, what sort of timeline should we expect to see the 
changes, the increased accountability, the improvements in 
security that you discussed?
    I am the co-chair of the Iraq Caucus here in the House of 
Representatives, and we are going to be making a trip to Iraq 
this fall. We would like to know what we can expect to see by 
then and where to find it?
    Colonel Navratil. Yes, sir.
    I think talking to IG, like I said, we work pretty well 
with IG--it sounds like the improvements have been done, either 
a work order has been implemented to fix the fence, they have 
changed to a new location with a more secure perimeter, and the 
boxes and crates that were identified before in a previous 
report are already banded up and better secured.
    So it sounded like those two instances are done. But I 
agree with the IG where he wants to see it, they have to see 
pictures, they have to do an on-site visit just to make sure 
that it is done, for one; and for two, in the future when we 
receive more packages, they continue to use updated security 
procedures.
    For the GAO report, it is a little more complex. I owe an 
action plan very shortly, I would say within 30 days, I mean, 
as far as working with GAO. I won't be ready to brief Congress 
within 30 days. But at least to GAO we are working out some 
sort of timeline on this action plan.
    And we already started the work a month or so ago, initial 
discussions. But it is a big project. And speaking of 
accountability, which I know is a big discussion on the 
previous panel, I won't be in DOD and OSD for more than another 
year, but I fully expect this project to follow me wherever I 
end up.
    So I will make sure it is completed, whether it is by 
myself or handing it off to somebody who replaces me. But this 
is a big project. So I think within the quarter we will have a 
solid plan as we figure out what the actual problems are in the 
system.
    And probably within a quarter after that, we will have buy-
in with the system, if you will, probably mostly in the Army 
system up through Defense Security Cooperation Agency to get 
this fix-it plan in place.
    Mr. Moulton. Well, we would certainly appreciate follow-up, 
and my staff and the committee staff can help get that follow-
up from you. If you have this plan within 30 days and say in 
about 40 days we would appreciate a brief on it, because that 
would be in anticipation of our trip to Iraq where we hope to 
see some of these changes and improvements.
    You know, to me, the bigger issue than the few boxes with 
holes in them is really the fundamental accountability in the 
system and ensuring that that is fixed.
    You know, it also strikes me that we have spent literally 
tens of millions of dollars delivering weapons to the Iraqis. 
The same could be said about Afghanistan. But to focus on Iraq 
for a second, tens of millions of dollars of weapons, 
equipment, et cetera.
    There are plenty of pictures on the internet that we see 
today of ISIS using many of those pieces of equipment, weapons, 
and associated ammunition against us. You know, at what point 
does Iraq have enough weapons? At what point are there enough 
weapons in the country that we should stop just spending 
millions of American taxpayer dollars on putting more guns on 
the ground in Iraq?
    Colonel Navratil. Sir, that is a great question. And I 
cannot provide a very detailed answer on that. What I can say 
is, we do not yet have what the Government of Iraq and what 
CENTCOM and the commanders in the DOD think are enough hold 
forces to protect these areas after ISIS has been defeated, 
like for Mosul, recent example.
    So we continue to work with the Government of Iraq, by, 
with, and through them, and with our coalition partners, but we 
are not at a point yet. A lot are destroyed, some highly 
visible examples, you know, that weapons may be compromised or 
stolen or whatever the case may be, given to people who should 
not have them.
    But those are things that as we identify them, we work 
through the Government of Iraq to take care of that situation. 
And they take those seriously. I can't say they get many 
results getting them back or what action they do take, but they 
take those seriously and we talk to them all the time. If we 
find any violation of that sort.
    Mr. Moulton. If you came to me and you said, you know, 
Congress, we really need to appropriate some money to send some 
oil to Iraq because Iraq is running short on oil, we would say 
that seems a little absurd because there is an awful lot of oil 
in Iraq.
    Well, at some point there are enough guns in Iraq that we 
shouldn't be buying more; that we should tell the Iraqis to get 
the guns off the street or wherever else they need to get them 
from, or from the insurgents, and start putting them back into 
their inventory, it seems to me. I mean, maybe I am being too 
logical about this, but at some point this is not a good use of 
American taxpayer dollars.
    Colonel Navratil. No, sir. And I don't want to make an 
excuse for what we are doing, because I am not the commander on 
the ground. I know as we fight ISIS and we continue to fight 
them--and there is probably a year or two, maybe more left, as 
we fight them and eradicate them in Iraq, you know, we 
continually arm the soldiers that we are arming in the Iraqi 
security forces. Some of the partnered, vetted forces that we 
are working with with ITEF support provided by Congress.
    So at some point we are going to cut the weapons off. I 
would just offer a data point that this war is very cheap 
compared to previous OIF [Operation Iraqi Freedom] and OND 
[Operation New Dawn], as you are probably aware. So I hate to 
compare it, but economy to scale, it is very--it is a lot 
better this way.
    And when you look at the American people who have 
sacrificed in this war as well, there have been only been like 
six over the past 3 years that have died in hostile acts. So a 
couple measurements, but I just think at some point you are 
correct, we will cut them off. But that point is not yet.
    Mr. Moulton. Okay. Thank you, Madam Chairwoman.
    Mrs. Hartzler. Thank you. Mr. Gaetz.
    Mr. Gaetz. Thank you, Madam Chair.
    Colonel, no one is really responsible for overseeing end 
use of equipment that we provide once we provide it to the 
Iraqi military. Isn't that right?
    Colonel Navratil. So that is not quite accurate. The Office 
of Security Cooperation in Iraq has that responsibility on 
them.
    Mr. Gaetz. And how would you assess their performance?
    Colonel Navratil. That is a difficult one to answer. But 
what I will tell you, it is a difficult environment. And I 
won't make excuses for them. We all know there is a lot of 
conflict in Iraq and those folks are over there trying to do a 
good job.
    What they do is work with, through the GOI, the Government 
of Iraq, through the various ministries to get reports back, 
usually the quarterly reporting cycle.
    Mr. Gaetz. I am speaking more to outcomes and less about 
process. So if we were to evaluate not the process that they 
use but the outcomes, would you say they have been effective at 
managing end use or ineffective at managing end use?
    Colonel Navratil. I am going to cut it down the middle and 
say so-so. I mean, I know there is a DSCA [Defense Security 
Cooperation Agency] report, I think from last year, that said 
they need improvement. But I can't get into that many more 
specifics on the topic because we weren't really prepared for 
this.
    Mr. Gaetz. Okay. Well, so in 2015, Senator McCain said 
that--and I am quoting here--``The Iraqi military is a long way 
from being prepared to act in an impactful fashion. Meanwhile, 
the vacuum is being filled by Shia militias that are Iranian 
backed.'' And he continued, ``Some of those arms have come from 
the United States of America.''
    So is the statement from Senator McCain accurate that the 
U.S. has allowed arms that are our arms to fall in the hands of 
Shia militia?
    Colonel Navratil. Sir, I would never contradict anything 
Senator McCain said. But what I can say is, I mean, ``allowed'' 
is kind of an exaggeration and I am not saying he exaggerated. 
But some U.S. equipment bought for ISF has more than likely 
found its way into enemy hands, whether--and I don't want to 
lump all the PMF [Popular Mobilization Forces] into enemy, but 
some of them have strong Shia backing, some strong Iranian 
ties. We all know this reading the paper.
    So the same as before, when we determine these situations 
exist, we work with State and our partners through the 
Government of Iraq and the ministries to get those back in 
proper hands.
    And we are--we deal with these issues infrequently, but 
when we do we treat them very seriously because, like you all 
know, we are putting a lot of money into this country trying to 
support them and enable them to govern and police themselves. 
That is a serious concern for us.
    Mr. Gaetz. Madam Chair, I would like to seek unanimous 
consent to enter into our subcommittee's record a January 8, 
2015, Bloomberg News article titled, ``Iran-Backed Militias Are 
Getting U.S. Weapons.''
    Mrs. Hartzler. So ordered.
    [The information referred to is retained in the 
subcommittee files and can be viewed upon request.]
    Mr. Gaetz. And Madam Chair, I also would seek unanimous 
consent to enter into our subcommittee's record a series of 
photographs showing U.S. tanks, U.S. equipment all flying under 
the flags of Iranian Shia militias.
    Mrs. Hartzler. So ordered.
    [The photos referred to are retained in the subcommittee 
files and can be viewed upon request.]
    Mr. Gaetz. My final question, Colonel, is what can we do to 
move from so-so performance on the management of end use to 
improved performance where the warfighters from my district and 
the districts of my colleagues all over the country are not 
having to fight against American equipment?
    Colonel Navratil. Sir, at this point it is partly a process 
of procedures, partly a--sorry. It is dependent on security and 
some is dependent on procedures and people following 
procedures. I think for the most part people know what the 
procedures are. We have written procedures, very easy to follow 
usually in the Army, and we do it that way for a reason.
    The situation we are in right now, it is getting better in 
Iraq. There is still a lot of fighters, a lot of ISIS out 
there, so it is not as easy to get out and follow up as we 
should.
    But at least for the very visible incidents, like the 
pictures you mention there, there is a lot of pressure from up 
high, and Secretary Mattis is, of course, tracking that very 
closely, to get the tanks where they should be, to get other 
weapons and equipment, if it is in the wrong hands, back to 
where it should be.
    It is a delicate situation now with, you know, 
counterbalancing Iranian influence with all the other countries 
that are surrounding Iraq and may want some part of that 
country after this fight is done.
    Mr. Gaetz. Thank you, Madam Chair. I yield back.
    Mrs. Hartzler. Thank you. Mr. Jones.
    Mr. Jones. Madam Chair, I thank you again.
    And Mr. Velz, I think you and I met a few months ago when I 
wrote the former Secretary of Defense Ash Carter to please 
explain to me how we made the mistake of taking the taxpayers' 
money and paying over 200,000 Afghans who didn't exist. The 
article said ghost soldiers, and I expressed that in the 
letter.
    You and Mr. Royal, very kind, came to chat with me about 
that. And the only thing I took from the discussion was that 
they are changing the metrics on how they keep up with who we 
are paying for this and that. I still don't question you or Mr. 
Royal, but I still think it is an impossible situation. But 
that is my problem, not yours.
    Last night I saw Peter Walsh, I believe his name is, with 
CNN [Cable News Network], with marines, I don't know if it was 
Helmand, but somewhere in Afghanistan, that they were waiting 
for the Afghan unit to come in to help them with a possible 
firefight.
    I think they were--the unit was about 500 Afghan soldiers. 
It ended up that they got less than 100 soldiers. So, again, 
that just adds to the frustration of our military, I am sure, 
but also the taxpayers and those of us who represent the 
taxpayers.
    Also this morning, I get in the office around 7:00, and I 
turn on the TV. And then I hear that the Russians are now doing 
a--quite an extensive supply of weapons to the Taliban. As we 
know, the Taliban make up the Afghan people. Most of them are 
Pashtuns. They have been fighting for 1,000 years and probably 
will for the next 1,000 years.
    And I said to you and Mr. Royal, and I know we are going to 
try to get together in September, I just don't know how in the 
world--when I hear the testimony, I want to thank again the 
chairwoman and also Mr. Moulton. This has been an excellent 
hearing, and I think that it should be on national TV. I said 
that early on the stand.
    But when we get to a point that we are spending billions 
and billions and billions in Afghanistan and we can't even get 
the majority--not all but the majority of the Afghans to stand 
up. And particularly what has distressed me--I represent Camp 
Lejeune, I represent Cherry Point Marine Air Station.
    When I know that these marines that I talk to, who have 
been there many, many times, feel that there is nothing that is 
changing--I don't expect you to tell me today in 2 minutes that 
everything is changing. I understand that. But it is the 
accountability that I think is missing.
    I don't know why someone cannot say to the Congress, you 
have spent close to $800 billion. We have been training the 
Afghans for 16 years. Honest to God, I don't mean this is too 
ugly, but you can train monkeys to ride a bicycle in 16 years.
    But we keep training and training, and half the people that 
we are training end up going with the Taliban. And a few of 
those we are training they killed two marines from my district, 
Major Palmer, Benjamin Palmer, and Sergeant Kevin Balduf, they 
both were shot and killed by the Afghans they were training.
    And just in the last month, there were three Army fellows 
who were shot by the people they were training. And at some 
point in time, somebody has got to be honest with the American 
people and the Congress and say to us, what is the benchmark? 
What are we trying to do?
    This 16 years cannot become 32 years. I will be dead and 
gone, but so America will be financially broke. When is the 
truth going to be told as to what is the benchmark?
    Mr. Velz. Sir, I think--first of all, thank you for your 
comments and questions. I think the main answer to your 
question will be when we get a decision from President Trump on 
our strategy and policy in Afghanistan. That is under review 
right now.
    Secretary Mattis, Secretary Tillerson, National Security 
Adviser McMaster have been in discussions with him about that. 
I think they are very close to making a final recommendation 
and decision on what our posture will be going forward. And the 
outcome of that, I think, will include some points that can 
address your concerns, sir.
    Mr. Jones. Thank you.
    Mr. Velz. So I can't offer you anything more on that.
    If you don't mind, sir, a couple quick comments on some of 
your other points.
    On the situation in Helmand, that has long been the most 
difficult security environment, most difficult area of 
responsibility within Afghanistan. And the problems of the 
Afghan National Army corps in that area are well known and have 
been the focus of a lot of attention over the last couple of 
years.
    There are other parts of Afghanistan where the Afghan army 
and the Afghanistan police, and certainly the Afghan special 
forces are frankly better organized, better led. Although, 
there have been leadership changes in the 215th Corps that are 
beginning to show improvements, but it still remains a work in 
progress.
    But, sir, the key metric I would hold out to you as to 
Afghan will is the number of casualties that they are 
suffering: 7,000 or 8,000 a year KIA [killed in action]; 14,000 
or 15,000 wounded in action. I think there is no question about 
the will of the Afghan soldier and police to fight.
    There are questions about whether they are all adequately 
led, as we would like them to be, in some cases, perhaps not 
adequately equipped and supplied. But they are doing the bulk 
of the fighting.
    Our combat forces are providing minimal support right now. 
Our special forces are working with the Afghan special forces 
who are highly, highly capable and are having a lot of 
successful counterterrorism operations.
    But I would just note that it is the Afghans' fight now; we 
are there to support. They are fully responsible for the 
security of their country. The U.S. and dozens of other 
coalition partners are assisting them.
    And, sir, I think, as I mentioned at the beginning, you 
know, once we have a decision from President Trump, I think we 
will be able to have more in-depth discussions on your 
question.
    Mr. Jones. Thank you, Madam Chair.
    Mrs. Hartzler. I want to thank the witnesses today for your 
testimony as well as your service to our Nation. That concludes 
our hearing.
    [Whereupon, at 3:51 p.m., the subcommittee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                             July 25, 2017
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 25, 2017

=======================================================================

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             July 25, 2017

=======================================================================

      

           RESPONSES TO QUESTIONS SUBMITTED BY MRS. HARTZLER

    Mr. Sopko. The Department of Defense currently contracts for the 
provision of uniforms for the Afghan National Army (ANA) on an ``as 
needed'' basis. The most recent contract was issued as a $7.8 million 
firm-fixed-price, sole-source award in September 2016 for the 
production of fabric printed with the Spec4ce Forest uniform pattern 
necessary for the assembly of an additional 195,000 ANA uniforms. The 
contract was awarded to Atlantic Diving Services (ADS), Inc., which 
holds the exclusive rights to the proprietary ANA camouflage pattern 
developed by HyperStealth, Inc., of Canada. The Department is not 
locked into any future purchases of uniforms from ADS, to SIGAR's 
knowledge. However, purchases using the existing camouflage pattern can 
only be made through ADS, as it holds the license from HyperStealth.   
[See page 11.]
    Mr. Velz. The Department of Defense does not have enough excess 
uniforms in inventory of a type that could be transferred to the Afghan 
Security Forces without jeopardizing our own security to outfit more 
than a few thousands Afghan soldiers at one time.
    U.S. combat military uniforms may be eligible for sale or transfer 
to foreign countries via Foreign Military Sales if the following three 
conditions apply:
    1) The uniform must be designated as excess by the U.S. Armed 
Forces; 2) The uniform must no longer be actively used by the U.S. 
Armed Forces or Reserves; and 3) The uniforms cannot contain 
Identification Friend or Foe (IFF) technology.
    The Defense Logistics Agency has confirmed that only three types of 
uniforms in its inventory currently meet all three requirements:
    1) Three-color Woodlands Battle Dress Uniforms; 2) Three-color 
Desert Camouflage Uniform; and 3) Six-color Desert Camouflage Uniform.
    Of these three types of uniforms, the quantities available of a 
full set are in the low 1000s whereas the annual requirement for Afghan 
National Army uniforms is in the hundreds of thousands.
    As I mentioned in my opening remarks, and in accordance with 
SIGAR's suggestions, DOD experts are undertaking a study to determine 
whether an Afghan National Army uniform could be produced that would be 
more cost effective and meets operational requirements, taking into 
account clothing design and camouflage pattern.   [See page 28.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. BANKS
    Mr. Sopko. SIGAR has consistently observed and reported on poor 
record keeping, limited oversight, and unclear roles and 
responsibilities, in regard to maintaining accountability for equipment 
purchased through the Afghanistan Security Forces Fund (ASFF) and 
provided to the ANDSF by CSTC-A. For example, in April 2017, SIGAR 
issued report 17-40, ``Afghan National Defense and Security Forces: DOD 
Needs to Improve Management and Oversight of Uniforms and Equipment,'' 
which included recommendations to CSTC-A to improve accountability of 
uniforms and equipment provided to the ANDSF. SIGAR found that CSTC-A's 
ability to develop and validate clothing and equipment requirements for 
the ANDSF is limited by poor data, reliance on questionable 
assumptions, and a lack of clear roles and responsibilities. For 
example, because CSTC-A relies on unreliable Afghan data, coalition 
officials assume that the Afghan military is operating at full capacity 
and consumes all its clothing and equipment every year without any 
surplus left over. CSTC-A's history of delivering large shipments of 
clothing and equipment at a level that often exceeds the number of 
assigned personnel in the ANDSF, makes it unlikely that the ANDSF is 
using all of its clothing and equipment every year. Reports from DOD 
describing unopened shipping crates of clothing that is not reflected 
in the ANDSF's current inventories lends credence to that presumption. 
SIGAR also found that CSTC-A did not demonstrate that it conducted 
effective oversight and accountability of clothing, equipment, and 
funds transferred to the Afghan government. The Department of Defense 
concurred with the five recommendations SIGAR made in the report, 
including improving needs forecasting models, and improving inventory 
records. In addition, SIGAR report 14-84, ``Afghan National Security 
Forces: Actions Needed to Improve Weapons Accountability,'' found that 
poor record keeping by the Afghan National Army and Afghan National 
Police limited the Department of Defense's ability to monitor weapons 
after transfer to the ANDSF, as required by the National Defense 
Authorization Act of 2010. SIGAR will continue to conduct regular 
oversight into CSTC's ability and effectiveness to maintain 
accountability for equipment purchased through ASFF and provided to the 
ANDSF, and will keep the subcommittee apprised of SIGAR's findings.   
[See page 19.]

                                  [all]




</pre></body></html>
